Nos. 19-1155 AND 19-1156

 

 

IN THE

Supreme Court of the United States

JEFFREY A. ROSEN, ACTING ATTORNEY GENERAL,
PETITIONER,

Vv.

MING Dal

JEFFREY A. ROSEN, ACTING ATTORNEY GENERAL,
PETITIONER,

v.

CESAR ALCARAZ-ENRIQUEZ

On Writs of Certiorari to the United States Court of Appeals for
the Ninth Circuit

BRIEF FOR AMICI CURIAE THE AMERICAN
IMMIGRATION LAWYERS ASSOCIATION AND THE
NATIONAL IMMIGRANT JUSTICE CENTER IN
SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,473 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 11, 2021.

 

Wilson-Epes Printing Co., Inc.
